No. _____
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________

OTHA RAY FLOWERS,
Petitioner
v.
UNITED STATES OF AMERICA
__________
APPLICATION FOR AN EXTENSION OF TIME IN WHICH TO FILE
A PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
__________
To the Honorable Samuel A. Alito, Jr., Associate Justice of the United States
and Circuit Justice for the Fifth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Rules 13.5, 22, and 30.2 of this Court, Otha
Ray Flowers respectfully requests a 33-day extension of the time, to and including
Tuesday, November 30, 2021, in which to file a petition for a writ of certiorari in this
Court. The U.S. Court of Appeals for the Fifth Circuit entered judgment on July 30,
2021. A copy of the Fifth Circuit’s opinion is attached as Exhibit 1. See United States
v. Flowers, No. 20-60056, 6 F.4th 651 (5th Cir. 2021). No requests for rehearing were
filed in the Fifth Circuit. Mr. Flowers’ time to file a petition for certiorari in this

1

Court will currently expire on October 28, 2021. This application is being filed more
than 10 days before that date.
To initiate an investigative stop in compliance with the Fourth Amendment,
an officer must have a reasonable suspicion of criminal activity. Kansas v. Glover,
140 S. Ct. 1183, 1187 (2020); Terry v. Ohio, 392 U.S. 1, 30-31 (1968). Reasonable
suspicion requires the detaining officer to have a “particularized and objective basis
for suspecting the particular person * * * of criminal activity.” United States v.
Cortez, 449 U.S. 411, 417-18 (1981). An investigatory stop must be justified by “some
objective manifestation that the person stopped is, or is about to be, engaged in
criminal activity” as opposed to lawful activity, id. at 417; a mere “hunch” that an
activity is unlawful will not suffice. Terry, 392 U.S. at 27.
This case presents a substantial and recurring question on which the federal
circuit courts and state courts of last resort are divided: whether ambiguous conduct
(i.e., conduct that is consistent with lawful or unlawful behavior), in which lawabiding members of the public regularly engage, may give rise to reasonable suspicion
justifying a Terry stop when it occurs in a high-crime area. In this case, a police
officer claimed reasonable suspicion to conduct an investigatory seizure where he
observed two men sitting in a parked car outside of an open convenience store for ten
to fifteen seconds, in a high-crime area. A divided Fifth Circuit panel upheld the stop
under Terry.
As Judge Elrod observed in dissent, the panel majority’s approach departs from
decisions of other circuits, which have declined to find reasonable suspicion in closely

2

comparable circumstances. Those courts have declined to base reasonable suspicion
on conduct fully consistent with either lawful or unlawful behavior, and that is widely
undertaken by the general public, even when it occurs in a high-crime area. State
high courts have similarly rejected a reasonable suspicion standard that would give
officers leeway to detain virtually any member of the general public, merely because
ambiguous conduct occurs in a high-crime areas. See, e.g., United States v. Jones,
606 F.3d 964, 967-968 (8th Cir. 2010) (finding no reasonable suspicion where the
supposedly “suspicious” conduct, while conceivably indicating suspect was carrying a
firearm, was “shared by countless, wholly innocent persons”); United States v.
Slocumb, 804 F.3d 677, 682-684 (4th Cir. 2015) (no reasonable suspicion where officer
observed defendant parked in parking lot in area known for drug activity);
Connecticut v. Edmonds, 145 A.3d 861, 882-884 (Conn. 2016) (same, where officer
observed defendant stand outside restaurant “for a few seconds”); State v. Paro, 54
A.3d 516, 516 (Vt. 2012) (no reasonable suspicion where officer saw a truck idling at
night in the parking lot of a previously burglarized auto repair shop); see also William
E. Ringel, Searches & Seizures, Arrests & Confessions § 13:25 (2d ed. 2021)
(discussing divergent approaches taken by courts to finding reasonable suspicion in
high-crime areas).
Undersigned counsel and the University of Virginia Supreme Court Litigation
Clinic are working diligently, but respectfully submit that the additional time
requested is necessary to complete preparation of Mr. Flowers’ petition. Undersigned
counsel, who represent Mr. Flowers pro bono, were engaged for the first time at the

3

certiorari stage. Despite diligent efforts over the past two months, substantial work
remains to complete review of the record of the case, conclude research on the
authorities supporting this Court’s review, and to finish preparing the petition and
appendix for filing. Among other things, this case requires detailed inquiries into
this Court’s precedents involving the interpretation and application of the Fourth
Amendment as applied to investigatory stops. It also requires careful review of a
substantial body of case law from federal and state courts applying the Fourth
Amendment to investigatory stops in high-crime areas.

Additional time is also

required to allow Mr. Flowers (who is currently incarcerated), as well as his existing
appellate counsel, sufficient opportunity to review and comment on draft filings.
Undersigned counsel has also faced numerous overlapping deadlines in other
matters during the time for preparation of a petition for writ of certiorari in this case.
Among other things, undersigned counsel of record filed a petition for writ of
certiorari in this Court in Struve v. Iowa, 21-374, on September 2, 2021; presented
oral argument in the U.S. Courts of Appeals for the First and D.C. Circuits on
September 14 and September 24, 2021, respectively; and has had merits briefing
deadlines in U.S. Court of Appeals matters on August 9, 2021 (Vecinos para el
Bienestar de la Comunidad Costera v. FERC, D.C. Cir. 20-1491), October 1, 2021
(Peregrine Oil & Gas II, LLC v. FERC, D.C. Cir. No. 21-1106), and October 18, 2021
(Solar Energy Industries Ass’n v. FERC, D.C. Cir. No. 21-1126 et al.).

4

Wherefore, Petitioner respectfully requests that an order be entered extending
the time to file a petition for writ of certiorari up to and including Tuesday, November
30, 2021.
Respectfully submitted,
C

. A„...Z.

JEREMY----1
C. 1cIAMARWELL
Counsel of Record
JAMES T. DAWSON
VINSON & ELKINS LLP
2200 Pennsylvania Ave., NW
Suite 500 West
Washington, D.C. 20037
(202) 639-6507
jmarwell@velaw.com
October 13, 2021

5

